No. ___________
IN THE SUPREME COURT OF THE UNITED STATES
KEVIN RAY PRENTICE,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
PROOF OF SERVICE
On this date, October 7, 2020, I served the attached Motion for Leave to
Proceed in Forma Pauperis and Petition for a Writ of Certiorari on this Court and
each party to the proceeding. I have served the Supreme Court of the United States
via Federal Express, standard overnight. I served the Solicitor General and Mr.
Prentice via the United States Postal Service, first-class mail. Per request, I served
Assistant United States Attorney Leigha Simonton by email.
The names and addresses of those served are as follows:
Clerk
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
Leigha Simonton
Assistant United States Attorney
1100 Commerce Street, 3rd Floor
Dallas, TX 75242
leigha.simonton@usdoj.gov

Solicitor General
Room 5614, Department of Justice
950 Pennsylvania Ave., N.W.
Washington, D.C. 20530

Respectfully submitted October 7, 2020.
/s/ Taylor Wills Edwards “T.W.” Brown
Taylor Wills Edwards “T.W.” Brown
Assistant Federal Public Defender
Northern District of Texas
P.O. Box 17743
819 Taylor Street, Room 9A10
Fort Worth, TX 76102
(817) 978-2753
Taylor_W_Brown@fd.org
Texas Bar No. 24087225

